>< ,;•!.

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUlt

No. 19-2625

HECTOR VALENTINE,'
Appellant
v.
UNITED STATES OF AMERICA

On Appeal from the United States District Court
for the Middle District of Pennsylvania:
(D.C. Civil Action No. 4:19-cv-009i4):
District Judge: Honorable Matthew W. Brann

Submitted Pursuant to Third Circuit EAR 34.1(a)
June 22, 2020
Before: SHWARTZ, RESTREPO and GREENBERG, Circuit Judges
(Opinion filed June 23, 2020),

OPINION*

i

* This disposition is not an opinion of the full Court and p'ufsuaht to I.O.P. 5.7 does not
constitute binding precedent.

A

PER CURIAM
Federal prisoner Hector Valentine appeals pro se from the order of the United
States District Court for the Middle District of Pennsylvania (“the MDPA”) dismissing
his habeas petition filed pursuant to 28 U.S.C. § 2241. For the reasons that follow, we
will affirm that decision.
I.
A criminal defendant qualifies as a “career offender’5 under the United States
Sentencing Guidelines if, inter alia, he “has at least two prior felony convictions of either
a crime of violence or a controlled substance offense.” U.S.S.G. § 4Bl.l(a); see U.S.S.G.
§ 4B1.2 (defining “crime of violence” and “controlled substance offense”). In 2012,
Valentine pleaded guilty in the United States District Court lor the Southern District of
New York (“the SDNY”) to conspiracy to distribute cocaine base. His written plea
v Vs:

agreement acknowledged that he qualified as a career offender, and it indicated that he
.0

had three prior convictions (all of which were New York state court convictions) that
qualified as career-offender predicates. In light of his career-offender designation, and
after accounting for a three-level reduction to his offense level based on his acceptance of
responsibility and timely notifying the Government of his intent to plead guilty, the
parties agreed that his advisory Guidelines range was 262 to 327 months in prison.1 His

1 The parties agreed that the version of the Guidelines in effect as of November 1, 2011,
applied to this case. The range of 262 to 327 months was based on an offense level of 34
2

plea agreement also included a provision waiving his right to challenge, on either direct
appeal or collateral review — including in a proceeding brought pursuant to 28 U.S.C.
§ 2255 or § 2241 — his sentence if it fell within or below that range.
The SDNY ultimately imposed a below-Guidelines prison sentence of 210
months. Despite the waiver provision in the plea agreement.. Valentine filed a direct
appeal and, later, a § 2255 motion. In 2013, the United States Court of Appeals for the
Second Circuit enforced the waiver provision and dismissed Valentine’s direct appeal to
the extent that he challenged his prison sentence.2 In 2015, the SDNY denied Valentine’s
§ 2255 motion, concluding that the waiver provision was enforceable and that, in any
event, his claims lacked merit.3
In 2018, Valentine filed a two-part document in the SDNY. The first part was
titled “Petitioner’s File a Motion to Reconsider Amendment 782 Under 18 U.S.C.
[§] 3582(c)(2) in Light of Recent Decision from Second Circuit Court of Appeals,”4 and

and a criminal history category of VI. See U.S.S.G. ch. 5, pt. A (Nov. 1, 2011)
(sentencing table).
2 To the extent that Valentine’s direct appeal raised issues that were not covered by the
waiver provision, the Second Circuit summarily affirmed the SDNY’s judgment.
3 Valentine appealed from the SDNY’s denial of § 2255 relief, but the Second Circuit
dismissed that appeal because he failed to move for a certificate of appealability
(“COA”).

4 Valentine had previously filed a § 3582(c)(2) motion, arguing that he was entitled to a
sentence reduction in view of Amendment 782 to the Guidelines, “which retroactively
reduced by two levels the base offense levels assigned to many drug quantities in the
Drug Guidelines.” United States v. Thompson, 825 F.3d 198, 202 (3d Cir. 2016). The

the second part was titled “Motion to File a 28 U.S.C. [§] 2241 Under Savings Clause in
Light of 28 U.S.C. [§] 2255(e).” The latter part argued that •{1) Valentine is actually
innocent of the offense to which he pleaded guilty because the Government’s evidence
was insufficient, and (2) in light of intervening decisions from the United States Supreme
Court and the Second Circuit, he no longer qualifies as a caiter dffender. The SDNY
treated this filing as an application for leave to file a second 6r successive § 2255 motion
and transferred it to the Second Circuit. In May 2019, the Second Circuit denied the
application, but it transferred Valentine’s case to the MDPA — the court for the federal
district in which he was confined — to the extent that he sought relief under § 2241. See
Rumsfeld v. Padilla. 542 U.S. 426, 442-43 (2004) (indicating that a § 2241 petition
should be filed in the district of confinement). After the transfer, the MDPA, on July 2,
*■

2019, dismissed Valentine’s § 2241 petition, concluding that he could not proceed under
-y
§ 2241 because his claims do not fall within the ambit of § 2255’s savings clause. This
timely appeal followed.

SDNY denied that motion, concluding that a reduction was hot warranted because that
amendment did not affect his career-offender sentence. Fie appealed from that decision,
but the Second Circuit dismissed his appeal based on his faillire to file a brief.
4

i

II.
We have jurisdiction over this appeal pursuant to 28 U.S.C. §§ 1291 and 2253(a).5
In reviewing the MDPA’s order dismissing Valentine’s habeas petition, we exercise
plenary review over the MDPA’s legal conclusions and review its factual findings for
clear error. See Cradle v. United States ex rel. Miner, 290 F.3d 536, 538 (3d Cir. 2002)
(per curiam). We may affirm that order on any basis supported by the record. See
Murray v. Bledsoe, 650 F.3d 246, 247 (3d Cir. 2011) (per curiam).
A § 2255 motion is the presumptive means by which a federal prisoner can
collaterally attack the legality of his conviction or sentence. See Qkereke v. United
States. 307 F.3d 117, 120 (3d Cir. 2002). A federal prisoner may challenge the legality
of his conviction or sentence via a § 2241 petition only if he establishes that a § 2255
motion would be “inadequate or ineffective.” See 28 U.S.C. § 2255(e); Cradle, 290 F.3d
at 538. For a case to fall within the “inadequate or ineffective” exception, two conditions
must be met. See Cordaro v. United States, 933 F.3d 232, 239 (3d Cir. 2019). “First, a
prisoner must assert a claim of actual innocence on the theory that he is being detained
for conduct that has subsequently been rendered non-criminal bv an intervening Supreme
Court decision and our own precedent construing an intervening Supreme Court decision

5 Valentine does not need a COA to proceed with this appeal. See United States v.
Ceoero. 224 F.3d 256, 264-65 (3d Cir. 2000) (en banc), abirbgated on other grounds by
Gonzalez v. Thaler, 565 U.S. 134 (2012).
5

. ..

Bruce v. Warden Lewisburg USP, 868 F.3d 170, 180 (3d Cir. 2017) (internal

quotation marks omitted). “[SJecond, the prisoner must be otherwise barred from
challenging the legality of the conviction under § 2255.” IcL (internal quotation marks
omitted).
We agree with the MDPA that, although Valentine claims that he is actually
innocent of the offense to which he pleaded guilty, he cannot seek relief under § 2241 on
that basis because “he does not assert that his conduct has ‘been rendered non-criminal by
an intervening Supreme Court decision.’” (Dist. Ct. Order entered July 2, 2019, at 5
(quoting Bruce, 868 F.3d at 180).) We devote the remainder of this opinion to his claim
challenging his career-offender designation. Assuming without deciding that this
I- : ^

sentencing claim is cognizable under § 2241, we conclude that this claim is barred by the
waiver provision in Valentine’s plea agreement.6
As discussed above, Valentine’s plea agreement waived his right to challenge his
sentence on either direct appeal or collateral review (including m a proceeding brought
pursuant to § 2255 or § 2241), so long as he was sentenced within or below the 262-to327-month range (which, of course, he was). Accordingly, that waiver provision clearly

6 After this appeal was fully briefed, this Court held “that an incorrect career-offender
enhancement under the advisory guidelines is not cognizable under § 2255.” United
States v. Folk, 954 F.3d 597, 604 (3d Cir. 2020). In view of our conclusion that
Valentine has waived the career-offender claim that is now before us, we need not reach
the question whether our decision in Folk would preclude h;fn from obtaining § 2241
relief on this claim.
6

covers the sentencing claim now before us. The question that remains is whether we
should enforce that waiver. A criminal defendant’s waiver df his appellate and collateralchallenge rights is not enforceable unless it was made knowingly and voluntarily. See,
e.g., United States v. Fazio. 795 F.3d 421, 425 (3d Cir. 2015); Sanford v. United States,
841 F.3d 578, 580 (2d Cir. 2016) (per curiam). Furthermore, we will not enforce a
waiver if doing so would work a miscarriage of justice. See Fazio. 795 F.3d at 425.
In Valentine’s case, the Second Circuit effectively concluded that his waiver of his
right to challenge his sentence on direct appeal was knowing and voluntary, and the
SDNY reached the same conclusion with respect to his waiver of his right to collaterally
challenge his sentence under § 2255. We see no reason to reach a different result with
: in . .

respect to his waiver of his right to collaterally challenge his sentence under § 2241. And
we conclude that enforcing the waiver here would not work a miscarriage of justice. If
Valentine had gone to trial and been convicted, he would not have received the
aforementioned three-level reduction to his offense level, and it appears that his advisory
Guidelines range would have been 360 months to life instead of 262 to 327 months. See
U.S.S.G. ch. 5, pt. A (Nov. 1, 2011) (sentencing table). Accordingly, by choosing to
plead guilty, he received a substantial benefit. Even if we were to assume for the sake of
argument that subsequent decisions from the Supreme Court and/or the Second Circuit
might call into question whether he would still have at least two qualifying careeroffender predicate convictions if he were sentenced now, those post-sentencing
7

developments do not justify setting aside his knowing and voluntary waiver of his right to
attack his sentence under § 2241. See United States v. Lockett. 406 F.3d 207, 214 (3d
Cir. 2005) (“The possibility of a favorable change in the law occurring after a plea
agreement is merely one of the risks that accompanies a guilty plea.”); id (concluding
that the appellant “cannot now ask to re-bargain the waiver of his right to appeal because
of changes in the law”); Sanford, 841 F.3d at 580 (explaining that the Second Circuit
“has held that a defendant’s inability to foresee [a change in the law] does not supply a
basis for failing to enforce an appeal waiver” (alteration in original) (internal quotation
marks omittedY); see also Folk. 954 F.3d at 605 (“[A]n incorrect career-offender
enhancement is not a fundamental defect inherently resulting in a complete miscarriage
of justice.”); United States v. Castro, 704 F.3d 125, 136 (3d pir. 2013) (“Courts apply the
miscarriage of justice exception sparingly and without undue generosity, but with the aim
of avoiding manifest injustice.” (internal quotation marks and citations omitted)).
; ;.

In view of the above, we will affirm the MDPA’s order dismissing Valentine’s
§ 2241 petition.

8

,,.v

A. IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
HECTOR VALENTINE,

No. 4:19-CV-00914

Petitioner,

(Judge Brann)

v.
UNITED STATES OF AMERICA,
Respondent.
MEMORANDUM OPINION
July 2,2019
I.

BACKGROUND
In 2012, Hector Valentine pled guilty to conspiracy to distribute cocaine base,

in violation of 18 U.S.C. §§ 841(a)(1), 841(b)(1)(A), 846.1 The sentencing court
determined that Valentine qualified as a career offender and sentenced him to 210
months’ imprisonment; the United States Court of Appeals for the Second Circuit
dismissed Valentine’s appeal as barred by an appellate waiver contained in the plea
agree.2 Valentine’s subsequent 28 U.S.C. § 2255 motion was denied.3

i

Doc. 1 at 12.
2 Id; United States v. Valentine, No. 12-3338 (2d Cir., Doc. 80).
3 Doc 1 at 12-13.

' \

Valentine has now filed a 28 U.S.C. § 2241 petition with this Court in which
he argues that he is entitled to a sentence reduction pursuant to Amendment 782 to
the U.S. Sentencing Guidelines Manual.4

Specifically, Valentine asserts that,

although he was previously denied a sentencing reduction because he was sentenced
as a career offender—and therefore Amendment 782 offered him no relief—he no
longer qualifies as a career offender in light of Mathis v. United States, 136 S. Ct.
2243 (2016) and United States v. Townsend, 897 F.3d 66 (2d Cir. 2018)7 Valentine
also asserts that he is actually innocent of his crime of conviction because there was
insufficient evidence of intent to distribute the cocaine base.6
II.

DISCUSSION
Although federal law generally requires that, when evaluating a §2241

petition, district courts “issue an order directing the respondent to show cause why
the writ should not be granted,” courts need not do so if “it appears from the
application that the applicant or person detained is not entitled thereto. »7 Thus, “a
district court is authorized to dismiss- a [§ 2241] petition summarily when it plainly

4 Doc. 1 at 1-2.
5 Id. at 5.
6 Id. at 5-6.
7 28 U.S.C. § 2243.
2

appears from the face of the petition and any exhibits annexed to it that the petitioner
is not entitled to relief in the district court.”8
Valentine challenges the validity of his criminal conviction and sentence, not
its execution.9

Although Valentine brings this challenge in a § 2241 petition,

“[m]otions pursuant to 28 U.S.C. § 2255 are the presumptive means by which federal
prisoners can challenge their convictions or sentences, „io Thus, “a federal prisoner
may resort to § 2241 only if he can establish that ‘the remedy by motion [under
§ 2255] is inadequate or ineffective to test the legality of his detention. 5»11
As the United States Court of Appeals for the Third Circuit has explained,
“[a] § 2255 motion is inadequate or ineffective only where the petitioner
demonstrates that some limitation of scope or procedure would prevent a § 2255
proceeding from affording him a full hearing and adjudication of his wrongful

8

Lonchar v. Thomas, 517 U.S. 314. 320 (1996) (internal quotation marks omitted).

9

“In order to challenge the execution of his sentence under § 2241, [Valentine] would need to
allege that BOP’s conduct was somehow inconsistent with a command or recommendation in
the sentencing judgment.” Cardona v. Bledsoe, 681 F.3d 533, 537 (3d Cir. 2012). Valentine s
challenge to his career offender designation and allegation that a subsequent amendment to the
Sentencing Guidelines entitles him to a sentence reduction clearly does not meet this threshold.
See, e.g., Barnett v. United States, 445 F. App’x 491, 492-93 (3d Cir. 2011) (holding that
challenge to career offender classification and assertion “that Amendment... to the Sentencing
Guidelines warrants a reduction in his sentence” not cognizable in § 2241 petition); Fillingham
v. United States, 867 F.3d 531, 539 (5th Cir. 2017) (same).

10 Okereke v. United States, 307 F.3d 117, 120 (3d Cir. 2002).
11 Bruce v. Warden Lewisburg USP, 868 F.3d 170, 178 (3d Cir. 2017) (quoting 28 U.S.C.
§ 2255(e)).

3

detention claim. ”12

<« It

is the inefficacy of the remedy, not the personal inability to

use it, that is determinative.”13
Accordingly,
[The Third] Circuit permits access to § 2241 when two conditions are
satisfied: First, a prisoner must assert a claim of actual innocence on the
theory that he is being detained for conduct that has subsequently been
rendered non-criminal by an intervening Supreme Court decision’ and
our own precedent construing an intervening Supreme Court
decision—in other words, when there is a change in statutory caselaw
that applies retroactively in cases on collateral review. And second, the
prisoner must be otherwise barred from challenging the legality of the
conviction under § 2255. Stated differently, the prisoner has had no
earlier opportunity to challenge his conviction for a crime that an
intervening change in substantive law may negate. It matters not
whether the prisoner’s claim was viable under circuit precedent as it
existed at the time of his direct appeal and initial § 2255 motion. What
matters is that the prisoner has had no earlier opportunity to test the
legality of his detention since the intervening Supreme Court decision
issued.14
The Savings Clause of § 2255 is jurisdictional; if a petitioner improperly challenges
his federal conviction under § 2241 when the underlying claim does not fit within
the Savings Clause, the petition must be dismissed.15
When evaluated under this standard, Valentine’s claim does not fit within the
Savings Clause, and this Court therefore lacks jurisdiction to consider his § 2241

12 Cradle v. U.S. ex rel. Miner, 290 F.3d 536, 538 (3d Cir. 2002).
13 Id.
14 Bruce, 868 F.3d at 180 (citations and internal quotation marks omitted).
15 See id. at 183 (noting the jurisdictional nature of the Savings Clause inquiry).

4

petition. First, although Valentine claims actual innocence, he does not assert that
his conduct has “been rendered non-criminal by an intervening Supreme Court
decision.”16 To the contrary, any actual-innocence-argument based on insufficiency
of the evidence would have been available to Valentine during his direct appeal.
Second, as this Court noted in dismissing Valentine’s previous § 2241 petition, his
assertion related to a sentencing enhancement or subsequent amendment to the
Sentencing Guidelines does not fit within the narrow exception afforded by the
Savings Clause.17 Finally, not only did Valentine have an “earlier opportunity to
challenge his conviction,”18 but he raised a substantially identical claim in his § 2255
motion and argued that he is not a career offender because one of his predicate
offenses no longer qualifies as a controlled substance offense.19 Consequently,
Valentine may not pursue his claim in a § 2241 petition.
III.

CONCLUSION
Valentine’s claim does not fit within 28 U.S.C. § 2255(e)’s Savings Clause,

and this Court therefore lacks jurisdiction over his petition. Valentine’s § 2241
petition must therefore be dismissed.

16 Id. at 180.
17 Valentine v. Spaulding, No. 4:17-CV-1770,2017 WL6336615,at*2(M.D.Pa. Dec. 12,2017).
18 Bruce, 868 F.3d at 180.
19 Doc. 1 at 13.

5

An appropriate Order follows.

BY THE COURT:

s/ Matthew W Brann
Matthew W. Brann
United States District Judge

6

A

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA

No. 4:19-CV-00914

HECTOR VALENTINE,

(Judge Brann)

Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ORDER
July 2,2019

In accordance with the accompanying Memorandum Opinion, IT IS
HEREBY ORDERED that:
1. Valentine’s motion for leave to proceed in forma pauperis (Doc. 4) is
GRANTED;
2. Valentine’s 28 U.S.C. § 2241 petition (Doc. 1) is DISMISSED for lack of
jurisdiction; and
3. The Clerk of Court is directed to CLOSE this case.

BY THE COURT:
s/ Matthew W Brann
Matthew W. Brann
United States District Judge

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2625

HECTOR VALENTINE,
Appellant
v.
UNITED STATES OF AMERICA

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Civil Action No. 4:19-cv-00914)
District Judge: Honorable Matthew W. Brann

SUR PETITION FOR REHEARING

BEFORE: SMITH, Chief Judge, and MCKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, Jr., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and GREENBERG*, Circuit Judges
i

The petition for rehearing filed by appellant, Hector Valentine, in the above
captioned matter having been submitted to the judges who participated in the decision of
this Court and to all the other available circuit judges of the Court in regular active
service, and no judge who concurred in the decision having asked for rehearing, and a
majority of the circuit judges of the circuit in regular active service who are not

* Judge Greenberg’s vote is limited to denying rehearing before the original panel.

disqualified not having voted for rehearing by the court en banc, the petition for rehearing
is denied.
BY THE COURT:
s/ Morton I. Greenberg
Circuit Judge
DATED: September 15, 2020
Lmr/cc: Hector Valentine
Timothy S. Judge

l

2

Clerk of Court
9A0
Third Street
WUliamsport, PA 17701-6460
No. 4-19-cv-00914
Date:July 8, 2019
NOTICE OF APPEAL
Petitioner due meet the requirement to move forward when the facts
Second Circuit Court of Appeals tranfers this petition under 28 U. S.C.
§ 2241 No. 18-2643 now upon this factual finding the US v. Townsend,
897 F.3d 66£2d Cir. 2018). Now at this time I'm being rejected for
lack of jurisdiction it just don't make since it came down in my
circuit a new opinion which render my career offender status no-longer
applicable or I should actual innocent. Appeal July 2, 2019 order.

Respectfully Submitted,

PS?:.'5

-

Hector Valentine#65531-054
FCI Allenwood Medium
P.0. Box. 2000
White Deer, PA. 17887

